                a 

                 

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 
                 



                     Improvements Needed to
                     Secure IT Assets at
                     EPA-Owned
                     Research Facilities
                     Report No. 13-P-0252                    May 8, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Rudolph M. Brevard
                                                   Warren Brooks
                                                   Teresa Richardson
                                                   Jeremy Sigel
                                                   Eric Jackson
                                                   Kyle Denning




Abbreviations

AED           Atlantic Ecology Division
CCTV          Closed-circuit television
COOP          Continuity of operations
ERD           Ecosystems Research Division
EPA           U.S. Environmental Protection Agency
GED           Gulf Ecology Division
IT            Information technology
LAN           Local Area Network
NIST          National Institute of Standards and Technology
OIG           Office of Inspector General
OMB           Office of Management and Budget
ORD           Office of Research and Development
PCs           Personal computers
SP            Special Publication
WEP           Wired Equivalent Privacy
WPA           Wi-Fi Protected Access
WPA2          Wi-Fi Protected Access II


Cover photos:	 Clockwise from top left: Unsecured thumb drives; signage at entrance;
               Gulf Ecology Division buildings. (EPA OIG photos)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                 13-P-0252
                                                                                                              May 8, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review               Improvements Needed to Secure IT Assets at
We sought to determine to            EPA-Owned Research Facilities
what extent management at
U.S. Environmental Protection         What We Found
Agency-owned research
facilities establish and             Facilities management at the Office of Research and Development facilities does
implement information security       not consistently apply, or in some cases establish, controls to protect IT assets.
practices to protect Agency          We found instances where IT security practices at the facilities did not meet
information technology assets.       minimal recommended controls for securing IT assets. Chief among our findings
Agency IT assets must be             are the following:
maintained in accordance with
security requirements defined               IT equipment was unprotected from and unmonitored for water damage.
by applicable federal laws,                 Access to server rooms was unrestricted.
executive orders, directives,
                                            No continuity of operations plan exists for provisioning IT equipment.
policies, standards, and
                                            Backup data were not stored offsite.
regulations to ensure adequate
confidentiality, availability, and
                                     The National Institute of Standards and Technology Special Publication 800-53,
integrity of the resources and
                                     Recommended Security Controls for Federal Information Systems and
information stored on or
                                     Organizations, among other federal and Agency policies and procedures,
transmitted through the EPA
                                     provides minimum security-control recommendations. Many security weaknesses
network. Network vulnerabilities
                                     occurred at ORD facilities because these facilities did not follow federal and
can expose IT assets to
                                     Agency guidance that prescribes measures for securing IT assets. Further, ORD
significant risk and disrupt
                                     facilities did not consistently perform or, when necessary, enhance security
operations if not identified and
                                     practices established to protect their facilities, as well as the IT resources within
resolved.
                                     their custody. Failure to consistently follow, perform, and monitor recommended
                                     and established security practices compromises the security of IT assets,
This report addresses the            disrupts business operations, and exposes sensitive Agency information.
following EPA Goal or
Cross-Cutting Strategy:               Recommendations and Planned Agency Corrective Actions
 Strengthening EPA’s                Management agreed with 14 of the 18 report recommendations to improve
  workforce and capabilities.        practices at ORD facilities. We consider these recommendations unresolved until
                                     the Agency provides planned completion dates. Management did not agree with
                                     recommendations to improve controls around the closed-circuit television system
                                     and to protect servers from accidental water damage. These recommendations
                                     are unresolved. We believe it is incumbent upon management to assess the
                                     risks for not implementing these needed measures. Furthermore, when required
                                     by federal guidance, management should document its decisions and have the
                                     responsible official formally accept responsibility.
For further information, contact
our Office of Congressional and       Noteworthy Achievements
Public Affairs at (202) 566-2391.
                                     We conducted tests to determine the effectiveness of security practices for
The full report is at:               remote-access capability. We concluded that ORD labs implemented effective
www.epa.gov/oig/reports/2013/        IT security controls that prevent unauthorized connection and communication by
20130508-13-P-0252.pdf
                                     limiting access to the Agency’s network through wireless network-access points.
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                    THE INSPECTOR GENERAL




                                              May 8, 2013


MEMORANDUM


SUBJECT:	 Improvements Needed to Secure IT Assets at EPA-Owned Research Facilities
          Report No. 13-P-0252


FROM:          Arthur A. Elkins Jr.


TO:	           Lek Kadeli, Principal Deputy Assistant Administrator
               Office of Research and Development


This is our report on the subject audit conducted by the Office of Inspector General of the U.S.
Environmental Protection Agency. This report contains findings that describe the problems the OIG has
identified and corrective actions the OIG recommends. This report represents the opinion of the OIG and
does not necessarily represent the final EPA position. EPA agreed with 14 of the recommendations.
However, we consider these recommendations unresolved until ORD provides estimated completion
dates. The Agency and the OIG disagreed on the other four recommendations and these will be
addressed through the audit resolution process. Final determinations on matters in this report will be
made by EPA managers in accordance with established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, the resolution process begins immediately with the issuance of
this report. We are requesting a meeting within 30 days between the Deputy Assistant Administrator for
Management for the Office of Research and Development and the OIG’s Assistant Inspector General for
the Office of Audit to resolve the four recommendations to which ORD disagrees. During the 30 days,
we are requesting the planned completion dates for the remaining 14 recommendations. If resolution is
still not reached, the ORD is required to complete and submit the dispute resolution request to the Chief
Financial Officer to continue resolution.

If you or your staff have any questions regarding this report, please contact Richard Eyermann, Acting
Assistant Inspector General for the Office of Audit, at (202) 566-0565 or eyermann.richard@epa.gov; or
Rudolph M. Brevard, Director of Information Resources Management Audits, at (202) 566-0893 or
brevard.rudy@epa.gov.
Improvements Needed to Secure IT Assets at                                                                                 13-P-0252
EPA-Owned Research Facilities



                                  Table of Contents

Chapters
   1    Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Noteworthy Achievements ...........................................................................                1     

                Scope and Methodology .......................................................................                      1


   2    Agency’s Network and Data Vulnerable to Unauthorized Access.................                                               3


                Network Connectivity at Risk Due to Unlocked Wiring Closets ...................                                    3

                Network at Risk Due to Unrestricted LAN Access
                  and Unpatched PCs ...............................................................................                3

                Access to Unsecured IT Assets Could Disclose Sensitive Data .................                                      4

                Recommendations ...............................................................................                    5

                Agency Response and OIG Evaluation ...................................................                             5


   3    IT Assets Unprotected by Physical and Environmental Controls .................                                             6


                Security Practices for Removal of IT Equipment Are
                  Not Consistently Implemented................................................................                     6

                Facilities and IT Property Unprotected from Unauthorized Access .............                                      7

                Physical Access to Server Room Unrestricted ............................................                           7

                Facilities’ Closed-Circuit Television System Unequipped to Monitor
                  All Entry Points .......................................................................................         8

                Recommendations ......................................................................................             8     

                Agency Response and OIG Evaluation .......................................................                         9


   4    Facilities Unprepared to Continue Operations in Emergency Situations.....                                                 10 


                Sanitized Media Untested for Removal of Sensitive Information.................                                    10 

                IT Resources Not Identified for Continuity of Business Operations.............                                    10 

                Critical Backup Media Not Stored Offsite for Continuity of
                   Business Operations ..............................................................................             11 

                Tested Emergency Power Supply and Water-Detection Devices
                   Needed for Continuity of Business Operations.......................................                            11 

                Recommendations ......................................................................................            12     

                Agency Response and OIG Evaluation .......................................................                        13 


   Status of Recommendations and Potential Monetary Benefits..............................                                        14



                                                              -continued-
Improvements Needed to Secure IT Assets at                                                         13-P-0252
EPA-Owned Research Facilities




Appendices
   A    Findings and Recommendations by Site .........................................................   17 


   B    Agency Response to Draft Report ………………………………………………..                                             20 


   C    Agency Response to OIG Revised Recommendations……………….............                                29 


   D    Distribution…………………………………………………………………………….                                                       34

                                  Chapter 1

                                   Introduction
Purpose
            We sought to determine to what extent management at U.S. Environmental
            Protection Agency research facilities establish and implement security practices to
            protect Agency information technology assets.

Background
            IT assets require countermeasures and security controls that protect computer-
            processing capabilities and mitigate the risk of loss caused by theft, fire, flood,
            intentional destruction and damage, mechanical equipment and power failures,
            and unauthorized access. Security controls are the management, operational, and
            technical safeguards employed in an information system to protect the
            confidentiality, integrity, and availability of the system and its information.
            Without protective countermeasures and security controls applied to information
            systems, Agency operations could be disrupted.

Noteworthy Achievements
            For each of the sites visited, we conducted tests to determine the effectiveness of
            security practices for remote-access capability. Remote access is the ability to
            communicate with another computer or network over communication lines.
            From our tests, we concluded that Office of Research and Development labs
            implemented effective IT security controls that prevent unauthorized connection
            and communication by limiting access to the Agency’s network through wireless
            network-access points.

Scope and Methodology
            We conducted this performance audit in accordance with generally accepted
            government auditing standards. Those standards require that we plan and perform
            the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
            for our findings and conclusions based on our audit objectives. We believe that
            the evidence obtained provides a reasonable basis for our findings and
            conclusions based on our audit objectives.

            We conducted this audit from February 2011 through October 2012. We
            evaluated the EPA’s controls designed to protect IT assets from physical,
            environmental, and human threats. We focused on facilities that the EPA owns
            and therefore has sole responsibility for the security of IT assets. We further


13-P-0252                                                                                         1
            limited our selection to program offices that occupy the majority of these
            facilities.

            ORD labs are the primary occupants for 12 of the 21 EPA-owned facilities.
            From this group of 12 facilities, we chose to visit the following 3 facilities:

                   Gulf Ecology Division, Gulf Breeze, Florida
                   Atlantic Ecology Division, Narragansett, Rhode Island
                   Ecosystems Research Division, Athens, Georgia

            In addition, we used Office of Inspector General audit results from two other
            ORD site locations. That assessment documented findings related to the IT
            security of computer rooms at the ORD facility in Las Vegas, Nevada, and the
            ORD lab in Corvallis, Oregon. The results of these site visits are reported in the
            OIG Report, EPA Should Improve Management Practices and Security Controls
            for Its Network Directory Service System and Related Servers, Report No.
            12-P-0836, September 20, 2012. Appendix A summarizes our findings from all of
            the assessed ORD facilities.

            We used the National Institute of Standards and Technology Special Publication
            800-53, Revision 3, Recommended Security Controls for Federal Information
            Systems and Organizations, May 1, 2010, as the template for evaluating IT
            security controls at ORD labs. We also referred to the U.S. Government
            Accountability Office Federal Information System Control Audit Manual,
            February 2009, GAO-09-232G, for guidance on general controls categories and
            for additional descriptions of control activities that should be included in IT
            security practices.

            We designed an assessment tool that covers the following five NIST SP 800-53,
            Revision 3, security-control families:

                   Physical and Environmental Protection
                   Access Control
                   Media Protection
                   System and Communications Protection
                   Contingency Planning

            We interviewed management at the ORD facilities, ORD program personnel,
            system administrators, and security personnel. We requested and reviewed the
            facilities’ local procedures, as well as relevant federal and Agency policies and
            procedures. Further, we conducted tests to verify the implementation and
            effectiveness of security controls and practices. We did not conduct follow-up
            audit work because there were no previous reports in this area.




13-P-0252                                                                                       2
                                   Chapter 2

            Agency’s Network and Data Vulnerable to 

                     Unauthorized Access 

             ORD facilities do not have established controls that secure or mitigate risks to the
             Agency’s network and data. Specifically, we found that ORD facilities
             management did not protect wiring closets, Local Area Network access points,
             and personal computers from unauthorized access. Although we found that ORD
             management is limiting access to the Agency’s network through wireless network
             access points, the encryption security for these access points can be improved.
             Agency guidance recommends safeguards that secure networks and data, and
             mitigate risks from misuse and other security breaches. The weaknesses we
             identified are the result of facilities management not adhering to and
             implementing Agency security requirements. Failure to actively manage access to
             the Agency’s network and data can lead to theft, destruction, or the compromise
             of sensitive information.

Network Connectivity at Risk Due to Unlocked Wiring Closets
             By failing to require the use of keys or electronic door locks, ORD facilities
             management is not restricting access to critical wiring closets. These closets
             contain cabling and switches that connect facility computers to the LAN and the
             Agency’s network. NIST SP 800-53, Revision 3, recommends securing
             information system distribution and transmission lines, including the wiring
             closets. Wiring closets are unsecured because management at the ORD facilities
             relies on limited security guard patrol to keep buildings and assets protected.
             Although guard patrols are a compensating control, there are not enough guards to
             cover the entire site at all times. Unsecured wiring closets increase the likelihood
             that unauthorized individuals could gain access to the telecommunications areas
             and damage the networks’ wires and cables.

Network at Risk Due to Unrestricted LAN Access and Unpatched PCs
             ORD facilities management has not implemented controls over production LAN
             access to mitigate the risk of a compromised network. When we connected a
             laptop as an unauthorized device to a random port, we were able to gain access to
             the network. According to the Agency Network Security Policy, the Agency shall
             implement protective mechanisms that ensure network security by regulating the
             type and direction of network activities. We were able to make the unauthorized
             connection because facilities management assumed the port was restricted to the
             device that was currently connected to the port. An unrestricted port could allow a
             device that contains viruses or other malware to connect and potentially infect the
             Agency’s network.

13-P-0252                                                                                       3
                    We also identified lab PCs connected to the production LAN,1 which did not have
                    updated security patches. The Agency Network Security Policy requires system
                    administrators to apply security patches and upgrades consistent with Agency-
                    approved standards. Management at ORD facilities asserts that applying security
                    patches to these lab computers would cause them to crash and lose research data.
                    Further, lab staff stated that these computers must remain connected to the LAN
                    for printing and research purposes. Without appropriate security patches, viruses
                    and other malware could spread to the production LAN, as well as to other
                    connected components.

Access to Unsecured IT Assets Could Disclose Sensitive Data
                    ORD management is not protecting IT assets from unauthorized access via
                    internal and external sources. We found workstations with critical financial
                    applications, passwords, and thumb drives left unattended. According to the
                    Agency Network Security Policy, EPA personnel, including contractors, are
                    responsible for safeguarding sensitive information, in addition to managing and
                    protecting passwords. However, management does not monitor staff to determine
                    whether they comply with Agency IT security requirements. Failure to safeguard
                    information, follow security guidelines, and monitor compliance could result in
                    sensitive information being modified or stolen.

                    In addition, our analysis revealed that wireless access point encryption security
                    could be strengthened. The Agency Network Security Policy states that
                    information safeguards (such as encryption, data filtering, tagging, or segregation)
                    must be implemented to ensure that sensitive information is protected from
                    disclosure, misuse, or other security breaches. Currently, ORD uses Wired
                    Equivalent Privacy encryption as its wireless security method, which is less
                    secure than Wi-Fi Protected Access or Wi-Fi Protected Access II encryption. 
                    However, ORD staff stated that they did not apply more robust security settings to
                    the wireless access points because these access points are not physically or
                    virtually connected to the facilities’ network or the LAN. ORD staff further stated
                    that limited security allows easier connection for visitors. Without these security
                    settings, an attacker could launch a “Man-in-the-Middle” attack to intercept the
                    path of communication and masquerade as a legitimate party, such as an
                    EPA facility.

                     




1
    Production LAN is the network in which current systems operate; it is separate from the development or test LAN.

13-P-0252                                                                                                          4
Recommendations
            We recommend that the Principal Deputy Assistant Administrator for Research
            and Development require facilities management personnel at:

               1.	 The Gulf Ecology Division to install locks on all facility wiring closets
                   protecting information technology assets. Additionally, require
                   management personnel at all other ORD facilities to conduct inspections
                   to verify functioning locks on wiring closets protecting information
                   technology assets have been installed.

               2.	 The Gulf Ecology Division to install locks on all facility exterior doors
                   protecting information technology assets. Additionally, require
                   management personnel at all other ORD facilities to verify functioning
                   locks on exterior doors containing information technology assets have
                   been installed.

               3.	 All ORD facilities to configure LAN security software to prevent
                   unauthorized device connection, and isolate or remove unpatched devices
                   from the production LAN.

               4.	 All ORD facilities to perform and document semiannual workstation
                   audits to assess staff compliance with Agency IT security requirements.

               5.	 All ORD facilities to strengthen encryption on all ORD wireless
                   access points.

Agency Response and OIG Evaluation
            EPA concurs with the report recommendations. Subsequent to issuance of our draft
            report, we met with Agency officials to discuss their concerns with the draft
            report’s recommendations. Where appropriate, we modified the report’s
            recommendations to address management’s concerns. Appendix B provides the
            Agency’s original response to the draft report. Appendix C provides the crosswalk
            between the OIG revised recommendations and the Agency’s response to those
            revised recommendations, along with the OIG overall analysis.




13-P-0252                                                                                      5
                                   Chapter 3

            IT Assets Unprotected by Physical and 

                   Environmental Controls 

            Some ORD facilities do not follow established physical and environmental
            practices that protect IT assets from unauthorized access. These conditions exist,
            in some cases, due to a failure to enforce existing procedures for securing federal
            property as documented in local facility security operating procedures.
            The absence of consistently performed practices compromises the security of
            significant IT assets and exposes them to theft.

Security Practices for Removal of IT Equipment Are Not
Consistently Implemented
            Management at some ORD facilities has not consistently implemented local
            security practices that could prevent the unauthorized removal of IT equipment.
            For example:

                  Security personnel do not inspect vehicles that enter and exit the grounds.
                  Front-desk personnel do not, and have not been trained to, examine
                   baggage entering and exiting the facility.
                  Security personnel do not examine and compare property passes to
                   employee ID badges to verify authorized removal of IT equipment.

            Local standard operating procedures for security guard services and security
            protection emphasize facility-specific security measures that protect buildings,
            personnel, and government property. These guard post orders or procedures for
            security operations stress tasks dedicated to the inspection of vehicles, baggage,
            briefcases, and property passes. These procedures do exceed federal guidance, but
            increase the likelihood of detecting unauthorized removal of government property
            or other suspicious activities. We found that facilities management does not
            enforce the inspection of employee vehicles, baggage, and property passes
            because of familiarity with facility employees.

            Additionally, we found that while contracted security services personnel are on
            roving patrol of the facility, there are no security personnel at the facility’s main
            entrance to conduct random inspections and monitor surveillance equipment.
            Contracted security services personnel are trained in general security services and
            are further trained in facility-specific security procedures. They are expected to
            meet minimum qualifications that allow them to conduct surveillance and protect
            property. Expectations would be that personnel performing the security function
            in the absence of the contracted security services personnel will be trained and
            qualified to do so. Without a consistently implemented strategy to prevent the


13-P-0252                                                                                         6
            unauthorized removal of IT equipment or other government property, theft of IT
            equipment (including sensitive data residing on the equipment) could occur.

Facilities and IT Property Unprotected from Unauthorized Access
            ORD IT assets are unguarded and unprotected from unauthorized physical access
            and removal. First, we noted contractors freely entering and exiting an unlocked
            room containing production servers that host facility security applications and
            unsecured electronic key cards that grant access to the facility. Second, we noted
            ORD staff entering and exiting buildings through unguarded and unmonitored
            doors, providing no opportunity to monitor baggage that may contain
            unauthorized items or equipment. Further, during a review of the facility
            employee separation process, we noted that management has no process for
            retrieving key cards and vehicle decals from contract employees before they
            terminate employment at the facility.

            NIST SP 800-53, Revision 3, specifies the monitoring of all entry and exit points
            to account for IT property and authorized access. Further, it specifies that
            agencies restrict access to only authorized personnel in areas where information
            systems reside.

            Unrestricted access to and from these ORD buildings exists because:

                 Facilities management is not using locks or key card entry.
                 Facilities personnel claim that budget restrictions prevent the monitoring
                  of all building entrances and exits.
               	 Facilities management has not established a policy requiring contract
                  employees to return key cards and vehicle decals on the final day of their
                  employment.

            These weaknesses expose facilities to unauthorized and unrestricted access
            and do not protect against the removal of valuable IT assets or the destruction
            of property.

Physical Access to Server Room Unrestricted
            Access to the ORD server rooms is not restricted to personnel with direct
            responsibility for IT equipment. The access control listings show an excessive
            number of personnel with access to the server rooms. NIST SP 800-53,
            Revision 3, specifies that organizations authorize physical access to the facility
            where the information system resides based on position or role. However, LAN
            administrators are approving access requests without consideration for need or job
            responsibility. Granting server room access to staff and visitors without a valid
            purpose poses an increased risk of unauthorized changes to equipment.



13-P-0252                                                                                       7
Facilities’ Closed-Circuit Television System Unequipped
to Monitor All Entry Points
            ORD facilities have limited camera coverage to monitor all building entrances.
            In some cases, we found no security cameras at main entrances, lobbies, exit
            doors, outside the server rooms, or near backup generators. In addition, we
            observed limited external lighting, which prevents the proper surveillance of areas
            such as parking lots, building annexes, and storage areas. Lighting should be
            sufficient to illuminate potential areas of concealment; enhance the observation by
            guard patrols; and provide for the safety of personnel moving between adjacent
            parking areas, streets, alleyways, and around the facility. Site lighting should be
            coordinated with the closed-circuit television system.

            We also found that some facilities had inadequate CCTV digital video storage and
            playback time. For example, some camera storage and playback time was only
            48 to 72 hours; one facility used real-time monitoring, leaving no camera storage
            and playback time for review.

            The Interagency Security Committee’s Physical Security for Federal Facilities
            allows the EPA to determine the length of time for which digital images should be
            stored, based upon facility operations and equipment capabilities. However, ORD
            facilities have not established the amount of video storage time that is required for
            retention and inspection purposes. The Security Management Division, Office of
            Administrative Service, provides guidance that requires the EPA to archive
            Agency CCTV recordings for up to 1 year at a secure location. Without ample
            storage and playback time, facilities management will not have enough video to
            evaluate evolving security incidents.

Recommendations
            We recommend that the Principal Deputy Assistant Administrator for Research
            and Development require facilities management personnel at:

               6.	 The Atlantic Ecology Division and Ecosystems Research Division to
                   guard the facility entrances and exits to facilitate random checks of
                   vehicles, baggage, and property passes. Additionally, require management
                   personnel at all other ORD facilities to adhere to local facility security
                   procedures if random checks of vehicles, baggage, and property passes are
                   required.

               7.	 The Atlantic Ecology Division to train all main-entrance personnel to
                   inspect badges, baggage, and property passes. Additionally, require
                   management personnel at all other ORD facilities to train, if needed, its
                   main-entrance personnel on any required local facility security procedures
                   for inspecting badges, baggage, and property passes at building entrances.


13-P-0252                                                                                      8
               8.	 All ORD facilities to lock the door to the room containing servers that host
                   facility security applications or move servers to a secure location.

               9.	 All ORD facilities to include contract employees in the facilities’
                   employment separation policy and procedures.

              10. All ORD facilities to formalize a process that restricts access to ORD
                  server rooms based upon job responsibility and need.

              11. The Gulf Ecology Division and Atlantic Ecology Division to improve
                  camera-monitoring systems and lighting to increase visibility at sites; and
                  to monitor external buildings, server rooms, hallways, storage areas, and
                  entries and exits. Additionally, require management personnel at all other
                  ORD facilities to review camera-monitoring systems and lighting to
                  ensure the equipment is functioning properly to facilitate monitoring of
                  external buildings, server rooms, hallways, storage areas, and entries and
                  exits.

              12. The Gulf Ecology Division and Atlantic Ecology Division to increase
                  CCTV monitoring storage time to meet EPA-approved storage
                  requirements. Additionally, require management personnel at all other
                  ORD facilities to review its practices to ensure CCTV monitoring storage
                  time meets EPA-approved storage requirements.

Agency Response and OIG Evaluation
            EPA concurs with recommendations 6 through 10. Management does not concur
            with recommendations to improve CCTV functionality, to improve monitoring of
            ORD facilities, or to increase CCTV monitoring storage time. Management follows
            Interagency Security Committee physical security standards, and these standards do
            not define minimum coverage or minimum recording capacity for CCTV systems.
            However, Closed-Circuit Television (CCTV) Systems Guidance requires the EPA to
            archive Agency CCTV recordings for up to 1 year at a secure location. As such, it
            is incumbent upon management to assess the risks and implement appropriate
            controls. We found the lack of adequate building lighting and CCTV makes the
            system ineffective for properly monitoring the facilities. Furthermore, CCTV
            storage capacity is inadequate for aiding management’s research if a security
            breach or incident occurs.

            Subsequent to issuance of our draft report, we met with Agency officials to discuss
            their concerns with the report’s recommendations. Where appropriate, we modified
            the report’s recommendations to address management’s concerns. Appendix B
            provides the Agency’s original response to the draft report. Appendix C provides
            the crosswalk between the OIG revised recommendations and the Agency’s
            response to those revised recommendations, along with the OIG overall analysis.



13-P-0252                                                                                       9
                                   Chapter 4

     Facilities Unprepared to Continue Operations in 

                  Emergency Situations 

            ORD facilities have not tested, identified, or executed preventative planning
            measures to ensure continuous business operations in the event of an emergency
            or an unauthorized information disclosure. This occurred because ORD facilities
            did not adhere to minimum security controls recommended by federal guidance.
            Without these controls in place, ORD facilities could encounter a disruption in
            business operations and experience a breach of sensitive information.

Sanitized Media Untested for Removal of Sensitive Information
            ORD facilities are not testing sanitized media, such as hard drives, to ensure
            future users do not obtain sensitive information. During our audit, we found that
            media is sanitized in-house by the degaussing method. Degaussing any current-
            generation hard disk will render the drive permanently unusable. This means that
            a magnetized degaussing machine scans a hard drive until the heads of the drive
            move, which signals the hard drive has been scrambled and is presumed to be no
            longer functional. However, according to the Agency’s Disk Sanitization
            Procedures, for drives sanitized at the facility, IT personnel must test the drives on
            a random basis to ensure the removal of all sensitive data. Our review found that
            facility IT personnel rely on the degaussing method to make drives inoperable and
            unable to maintain data, and did not test sanitized media. However, sanitized
            media may contain sensitive data that could compromise the Agency if obtained
            by unauthorized parties and should be tested.

IT Resources Not Identified for Continuity of Business Operations
            Continuity of operations plans for ORD facilities do not identify IT equipment
            needs and the availability of IT equipment in the event of a COOP emergency.
            ORD COOP plans did not properly identify IT equipment needed to prepare
            alternative worksites, known as cold sites. In addition, the ORD COOP plans did
            not provide listings of local stores from which to purchase IT equipment or the
            names of government purchase cardholders authorized for procurement for each
            ORD facility.

            NIST SP 800-53, Revision 3, specifies ensuring that equipment and supplies
            required to resume operations are available at the alternate site, or contracts
            should be in place to support delivery of equipment and supplies to the site in
            time to support the agency-defined time period for resumption of business
            operations. In addition, the publication specifies that the organization establish an
            alternate processing site, including necessary agreements to permit the resumption


13-P-0252                                                                                      10
                of information system operations for essential mission and business functions
                when primary processing capabilities are unavailable.

                ORD COOP plans do not include these details because ORD management did not
                provide instructions for documenting IT equipment needs and usage in the event
                of an emergency. Without defining and documenting IT equipment needs and
                usage in the COOP plan, ORD labs may experience delays in the resumption of
                business operations in the event of a COOP emergency.

Critical Backup Media Not Stored Offsite for Continuity
of Business Operations
                ORD facilities do not have offsite backup data, as federal guidance prescribes.
                According to NIST SP 800-53, Revision 3, agencies are responsible for ensuring
                the recovery of data by storing backup copies of the data, the operating system,
                and other critical information system software in a separate facility or fire-rated
                container that is not co-located in the same physical area. ORD facilities store
                backup tapes onsite because they rely on the primary site’s fire-rated containers to
                protect backup copies of data. However, if a geographic disaster destroys the
                primary site, backup data will be destroyed as well, hindering resumption of
                business operations.

Tested Emergency Power Supply and Water-Detection Devices
Needed for Continuity of Business Operations
                We found that server rooms were untested for uninterrupted power supply,
                which ensures continuous operations in the event of a disaster. According to NIST
                SP 800-53, Revision 3, agencies are responsible for short-term uninterrupted
                power supply for the orderly shutdown of information systems in the event of a
                primary power source loss. In addition, Office of Management and Budget
                Circular A-130, Appendix III, suggests that agencies have contingency planning
                activities established and periodically tested in the event of service interruptions.
                ORD IT personnel stated that they do not conduct testing of the uninterrupted
                power supply due to the disruption of operations that would occur in the event of
                a failed test. When asked, ORD IT personnel were not able to provide testing
                documents or guidance for establishing preventative controls. ORD facilities
                could face significant delays in restoring power if uninterrupted power supplies
                do not perform as they should.

                Moreover, we found servers placed under charged, wet-piped fire suppression
                systems.2 At each facility we visited, we observed sprinklers located directly
                above server racks, leaving them subject to water damage in the event of leakage.

2
 In wet-piped sprinkler systems, the most common of all sprinkler systems, water remains in the overhead piping

until a head fuses, causing the water pressure to force the water out to suppress a fire. 



13-P-0252                                                                                                      11
            According to OMB Circular A-123, management is responsible for ensuring an
            effective internal control environment is sustained. ORD management stated that
            in the event of an emergency, protecting personnel is a higher priority than
            protecting IT equipment. However, placing the servers under wet-pipe sprinkler
            systems could lead to water damage, loss of critical scientific data, and loss of
            backup tapes stored in server rooms.

            Similarly, sensors to detect water leakage or flooding are not installed in server
            rooms at ORD facilities. Our audit results found that ORD management did not
            plan a strategy to address water-leakage events in the server room. The inability to
            detect and alert IT personnel about server room flooding increases the likelihood
            of damage to the server room and IT equipment, and could result in a disruption
            of business operations.

Recommendations

            We recommend that the Principal Deputy Assistant Administrator for Research
            and Development require facilities management personnel at:

              13. All ORD facilities to develop and employ procedures for the random
                  testing of sanitized drives to verify the removal of sensitive information.

              14. The Gulf Ecology Division, Atlantic Ecology Division, and Ecosystems
                  Research Division to update contingency plans to include:

                        a. 	 A list of required IT equipment provisions for essential staff in the
                             event of an emergency.
                        b.	 A list of local stores and vendors from which to procure IT
                             equipment in order to maintain operations in an emergency.
                        c.	 Procurement procedures and the names of authorized purchase
                             cardholders in COOP plans for each ORD facility.

                   Additionally, require management personnel at all other ORD facilities to
                   provide operational resources and facilities in the event of an emergency.

              15. All ORD facilities to relocate data backup tapes offsite to a secure
                  location.

              16. All ORD facilities to conduct and document annual tests (during non-
                  business hours) of the uninterrupted power supply connected to servers.

              17. The Gulf Ecology Division, Atlantic Ecology Division, and Ecosystems
                  Research Division to move the server racks so that they are not located
                  directly under sprinkler heads or water pipes, or install leak shields on
                  sprinkler heads located above the server racks to comply with NIST
                  SP 800-53 requirements. If management decides to accept the risk of not

13-P-0252                                                                                       12
                   relocating the server racks, then ORD should update the respective
                   information system security plan and have the authorizing official
                   formally accept the responsibility for operating the room with known risks
                   as required by federal policy.

              18. All ORD facilities to develop a strategy that addresses limiting water
                  damage to IT assets located in the server room and include:

                        a. 	 A 24 hours/day, 7 days/week monitoring provision.
                        b. 	 Timely actions to be taken in the event of water leaks in the server
                             room.

                   If management decides to accept the risk of not developing a strategy to
                   comply with NIST SP 800-53 requirements, then ORD should update the
                   respective information system security plan and have the authorizing
                   official formally accept the responsibility for operating the room with
                   known risks as required by federal policy.

Agency Response and OIG Evaluation

            EPA concurs with recommendations 13 through 16. Management does not concur
            with recommendations to improve the server room environmental controls to
            protect the servers from accidental water damage. Management cites that installing
            a shield could create an obstruction that could interrupt the water discharge and
            result in the loss of life. Management also states the fire protection systems are
            zoned in a manner to only discharge water in the area(s) that require fire
            suppression, and if a leak occurs, the water and/or air pressure will drop and result
            in an alarm.

            Our audit revealed many of the ORD servers in question sit directly under the
            sprinkler head, and the risks from accidental water damage could be reduced by
            rearranging the servers within the room. However, it is incumbent upon
            management to assess the risks for not implementing these needed measures.
            Furthermore, when specified in federal guidance, management should document its
            decisions within the organization’s information system security plan. Additionally,
            we requested documentation governing the fire system design and alarm system.
            Management had not provided this information. Therefore, we consider these
            recommendations unresolved.

            Subsequent to issuance of our draft report, we met with Agency officials to discuss
            their concerns with the report’s recommendations. Where appropriate, we modified
            the report’s recommendations to address management’s concerns. Appendix B
            provides the Agency’s original response to the draft report. Appendix C provides
            the crosswalk between the OIG revised recommendations and the Agency’s
            response to those revised recommendations, along with the OIG overall analysis.


13-P-0252                                                                                     13
                             Status of Recommendations and
                               Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                                 RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                Planned
 Rec.   Page                                                                                                   Completion   Claimed    Agreed-To
 No.     No.                          Subject                           Status1        Action Official            Date      Amount      Amount

  1      5     Require facilities management personnel at the             U       Principal Deputy Assistant
               Gulf Ecology Division to install locks on all facility             Administrator for Research
               wiring closets protecting information technology                       and Development
               assets. Additionally, require management at all
               other ORD facilities to conduct inspections to verify
               functioning locks on wiring closets protecting
               information technology assets have been installed.

  2      5     Require facilities management personnel at the             U       Principal Deputy Assistant
               Gulf Ecology Division to install locks on all facility             Administrator for Research
               exterior doors protecting information technology                       and Development
               assets. Additionally, require management at all
               other ORD facilities to verify functioning locks on
               exterior doors containing information technology
               assets have been installed.

  3      5     Require facilities management personnel at all             U       Principal Deputy Assistant
               ORD facilities to configure LAN security software to               Administrator for Research
               prevent unauthorized device connection, and                            and Development
               isolate or remove unpatched devices from the
               production LAN.

  4      5     Require facilities management personnel at all             U       Principal Deputy Assistant
               ORD facilities to perform and document                             Administrator for Research
               semiannual workstation audits to assess staff                          and Development
               compliance with Agency IT security requirements.

  5      5     Require facilities management personnel at all             U       Principal Deputy Assistant
               ORD facilities to strengthen encryption on all ORD                 Administrator for Research
               wireless access points.                                                and Development

  6      8     Require facilities management personnel at the             U       Principal Deputy Assistant
               Atlantic Ecology Division and Ecosystems                           Administrator for Research
               Research Division to guard facility entrances and                      and Development
               exits to facilitate random checks of vehicles,
               baggage, and property passes. Additionally,
               require management at all other ORD facilities to
               adhere to local facility security procedures if
               random checks of vehicles, baggage, and property
               passes are required.

  7      8     Require facilities management personnel at the             U       Principal Deputy Assistant
               Atlantic Ecology Division to train all main-entrance               Administrator for Research
               personnel to inspect badges, baggage, and                              and Development
               property passes. Additionally, require management
               at all other ORD facilities to train, if needed, its
               main-entrance personnel on any required local
               facility security procedures for inspecting badges,
               baggage, and property passes at building
               entrances.




13-P-0252                                                                                                                                     14
                                                                                                                          POTENTIAL MONETARY
                                                RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                              Planned
 Rec.   Page                                                                                                 Completion   Claimed    Agreed-To
 No.     No.                         Subject                          Status1        Action Official            Date      Amount      Amount

  8      9     Require facilities management personnel at all           U       Principal Deputy Assistant
               ORD facilities to lock the door to the room                      Administrator for Research
               containing servers that host facility security                       and Development
               applications or move servers to a secure location.

  9      9     Require facilities management personnel at all           U       Principal Deputy Assistant
               ORD facilities to include contract employees in the              Administrator for Research
               facilities’ employment separation policy and                         and Development
               procedures.

 10      9     Require facilities management personnel at all           U       Principal Deputy Assistant
               ORD facilities to formalize a process that restricts             Administrator for Research
               access to ORD server rooms based upon job                            and Development
               responsibility and need.

 11      9     Require facilities management personnel at the           U       Principal Deputy Assistant
               Gulf Ecology Division and Atlantic Ecology Division              Administrator for Research
               to improve camera-monitoring systems and lighting                    and Development
               to increase visibility at sites; and to monitor
               external buildings, server rooms, hallways, storage
               areas, and entries and exits. Additionally, require
               management at all other ORD facilities to review
               camera-monitoring systems and lighting to ensure
               the equipment is functioning properly to facilitate
               monitoring of external buildings, server rooms,
               hallways, storage areas, and entries and exits.

 12      9     Require facilities management personnel at the           U       Principal Deputy Assistant
               Gulf Ecology Division and Atlantic Ecology Division              Administrator for Research
               to increase CCTV monitoring storage time to meet                     and Development
               EPA-approved storage requirements. Additionally,
               require management at all other ORD facilities to
               review its practices to ensure CCTV monitoring
               storage time meets EPA-approved storage
               requirements.

 13      12    Require facilities management personnel at all           U       Principal Deputy Assistant
               ORD facilities to develop and employ procedures                  Administrator for Research
               for the random testing of sanitized drives to verify                 and Development
               the removal of sensitive information.

 14      12    Require facilities management personnel at the           U       Principal Deputy Assistant
               Gulf Ecology Division, Atlantic Ecology Division,                Administrator for Research
               and Ecosystems Research Division to update its                       and Development
               contingency plans to include:
                  a. A list of required IT equipment provisions for
                     essential staff in the event of an emergency.
                  b. A list of local stores and vendors from which
                     to procure IT equipment in order to maintain
                     operations in an emergency.
                  c. Procurement procedures and the names of
                     authorized purchase cardholders in COOP
                     plans for each ORD facility.
               Additionally, require management personnel at all
               other ORD facilities to provide operational
               resources and facilities in the event of an
               emergency.

 15      12    Require facilities management personnel at all           U       Principal Deputy Assistant
               ORD facilities to relocate data backup tapes offsite             Administrator for Research
               to a secure location.                                                and Development


13-P-0252                                                                                                                                   15
                                                                                                                                POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                    Planned
    Rec.    Page                                                                                                   Completion   Claimed    Agreed-To
    No.      No.                          Subject                           Status1        Action Official            Date      Amount      Amount

    16       12     Require facilities management personnel at all            U       Principal Deputy Assistant
                    ORD facilities to conduct and document annual                     Administrator for Research
                    tests (during non-business hours) of the                              and Development
                    uninterrupted power supply connected to servers.

    17       12     Require facilities management personnel at the            U       Principal Deputy Assistant
                    Gulf Ecology Division, Atlantic Ecology Division,                 Administrator for Research
                    and Ecosystems Research Division to move the                          and Development
                    server racks so that they are not located directly
                    under sprinkler heads or water pipes, or install leak
                    shields on sprinkler heads located above the server
                    racks to comply with NIST SP 800-53
                    requirements. If management decides to accept the
                    risk of not relocating the server racks, then ORD
                    should update the respective information system
                    security plan and have the authorizing official
                    formally accept the responsibility for operating the
                    room with known risks as required by federal
                    policy.

    18       13     Require facilities management personnel at all            U       Principal Deputy Assistant
                    ORD facilities to develop a strategy that addresses               Administrator for Research
                    limiting water damage to IT assets located in the                     and Development
                    server room and include:
                        a. A 24 hours/day, 7 days/week monitoring
                           provision.
                        b. Timely actions to be taken in the event of
                           water leaks in the server room.
                    If management decides to accept this risk of not
                    developing a strategy to comply with NIST SP
                    800-53 requirements, then ORD should update the
                    respective information system security plan and
                    have the authorizing official formally accept the
                    responsibility for operating the room with known
                    risks as required by federal policy.




1    O = Recommendation is open with agreed-to corrective actions pending.

     C = Recommendation is closed with all agreed-to actions completed.

     U = Recommendation is unresolved with resolution efforts in progress.





13-P-0252                                                                                                                                         16
                                                                                           Appendix A

                  Findings and Recommendations by Site
Table A-1: Findings and recommendations by ORD site
                                                                  ORD
                                                                                              ORD
                                                         GEDa     Las      AEDb     ERDc
                                                                                             Corvallis
  Issue reviewed           Recommendations                       Vegas
                                                                X = Weakness found at location

 Network cables      Install locks on all facility
                                                          X
 and switches        wiring closets.
 exposed to          Install locks on exterior doors
 tampering           to buildings that contain IT         X
 (p. 3)              assets.
                     Configure LAN security
 Port security not
                     software to prevent
 configured and PC
                     unauthorized device
 security patches                                                                     X
                     connection, and isolate or
 outdated
                     remove unpatched devices
 (pp. 3–4)
                     from the production LAN.
                     Perform and document
 ORD workstations    semiannual workstation audits
 left unattended     to assess staff compliance           X                  X        X
 (p. 4)              with Agency IT security
                     requirements.
 Wireless LAN
 connection          Strengthen encryption on all
                                                          X
 unsecured           ORD wireless access points.
 (p. 4)
                     Guard entrances and exits to
                     facilitate random checks of
 IT equipment                                             X                  X        X
                     vehicles, baggage, and
 susceptible to
                     property passes.
 unauthorized
                     Train all main-entrance
 removal
                     personnel to inspect badges,
 (p. 6)                                                                      X
                     baggage, and property
                     passes.
                     Lock the door to the room
 Key cards and
                     containing servers that host
 host servers
                     facility security applications or                                X
 unsecured
                     move servers to a secure
 (p. 7)
                     location.




  13-P-0252                                                                                          17
                                                                    ORD
                                                                                               ORD
                                                           GEDa     Las      AEDb     ERDc
                                                                                              Corvallis
 Issue reviewed             Recommendations                        Vegas
                                                                  X = Weakness found at location
Retrieval of
contract employee      Include contract employees in
key cards not          the facilities’ employment
                                                                                        X
consistently           separation policy and
performed              procedures.
(p. 7)
Excessive              Formalize a process that
authorized server      restricts access to ORD server
                                                            X                  X        X          X
room access            rooms based upon job
(p. 7)                 responsibility and need.
                       Improve camera-monitoring
                       systems and lighting to
                       increase visibility at sites; and
Facilities not fully
                       to monitor external buildings,       X         X        X                   X
monitored by
                       server rooms, hallways,
CCTV system
                       storage areas, and entries and
building access
                       exits.
points
                       Increase the CCTV monitoring
(pp. 7–8)
                       storage time to meet EPA-
                                                            X         X        X                   X
                       approved storage
                       requirements.
Untested media
                       Develop and employ
drives do not
                       procedures for the random
ensure removal of
                       testing of sanitized drives to                          X        X
Agency
                       verify the removal of sensitive
information
                       information.
(p. 10)
                       Update ORD COOP plans to
                       include:
                         a. A list of the required IT
                                                            X                  X        X
                             equipment provisions for
                             essential staff in the
                             event of an emergency.
                         b. A list of local stores and
COOP plan                    vendors to procure IT
outdated                     equipment from in order        X                  X        X
(pp. 10–11)                  to maintain operations in
                             an emergency.
                         c. Procurement procedures
                             and the names of
                             authorized purchase
                                                            X                  X        X
                             cardholders in COOP
                             plans for each ORD
                             facility.




  13-P-0252                                                                                            18
                                                                  ORD
                                                                                             ORD
                                                         GEDa     Las      AEDb     ERDc
                                                                                            Corvallis
  Issue reviewed            Recommendations                      Vegas
                                                                X = Weakness found at location
 Backup tapes
                       Relocate data backup tapes
 stored onsite                                            X                  X        X
                       offsite to a secure location.
 (p. 11)
 Server rooms
 untested for
 uninterrupted
                       Conduct and document annual
 power supplies,
                       tests (during non-business
 and
                       hours) of the uninterrupted                           X        X
 network cables
                       power supply connected to
 and switches
                       servers.
 exposed to
 tampering
 (p. 11)
                     Move the server racks so that
                     they are not located directly
                     under sprinkler heads or water
                                                          X                  X        X          X
                     pipes, or install leak shields on
                     or above the server racks.
                     Develop a strategy that
 No water sensors    addresses limiting water
 installed in server damage to IT assets located in
 room                the server room and include:
 (p. 12)               a. A 24 hours/day,
                            7 days/week monitoring        X                                      X
                            provision.
                       b. Timely actions to be
                            taken in the event of a
                            water leak in the server
                            room.
Source: OIG analysis of field work results.
        a
            Gulf Ecology Division
        b
            Atlantic Ecology Division
        c
            Ecosystems Research Division




   13-P-0252                                                                                         19
                                                                                     Appendix B

                   Agency Response to Draft Report

MEMORANDUM

SUBJECT:	 Office of Research and Development (ORD) Response to the Office of Inspector
          General (OIG)’s Draft Report entitled, “Improvements Needed to Secure IT
          Assets at EPA-Owned Research Facilities,” dated October 31, 2012

FROM: 	        Lek G. Kadeli, Principal Deputy Assistant Administrator

TO:    	       Arthur Elkins, Inspector General
               Office of Inspector General

Thank you for the opportunity to review and comment on OIG’s Draft Report, “Improvements
Needed to Secure IT Assets at EPA-Owned Research Facilities.” Our comments are noted
below.

The OIG report contained findings and recommendations concerning physical security at ORD
facilities as well as information technology security. Office of Administration and Resources
Management, Security Management Division (SMD) provides overarching guidance to the
Agency regarding physical security issues and was consulted on this response.

We agree with SMD that the OIG review should have applied the Interagency Security
Committee (ISC) standards document entitled, “Physical Security Criteria for Federal
Facilities,” dated April 2012, in addition to the National Institute of Standards and Technology
(NIST) Special Publication (SP) 800-53, “Recommended Security Controls for Federal
Information Systems and Organizations,” which served as OIG’s primary basis for evaluation.
NIST 800-53 contain security recommendations for federal information systems, whereas the
ISC standards apply to federal facilities. The ISC standards take into account a facility’s assigned
Facility Security Level (FSL) and have graduated security measures associated with the FSLs.

Moreover, SMD conducts routine vulnerability (security) assessments at EPA facilities. The
SMD assessments and recommendations for each EPA facility are tailored to their assigned
Facility Security Level, in accordance with the ISC standards. Individual ORD sites have
Physical Security Plans that reflect their designated Facility Security Level. Therefore, ORD
believes that the OIG’s findings and the resulting recommendations should be specific to the
sites where vulnerabilities were detected and not generalized to all ORD facilities.

Detailed comments addressing each of the OIG’s recommendations are provided in the
attachment. If you have any questions regarding this response, please contact Deborah Heckman
at (202) 564-7274.




13-P-0252                                                                                        20
 Rec                                 Responsible
 No.    OIG Recommendation             Office                    ORD Response
                                                   ORD concurs. However, note that the
                                                   deficiency was only found at one facility
                                                   (GED), and the recommended action is
                                                   complete. ORD/OARS prefers that the
       Direct facilities
                                                   recommendation only be directed to the
       management at all ORD
                                                   facility where the finding was noted.
  1    facilities to install locks   ORD/OARS
                                                   ORD facilities have been made aware
       on all facility wiring
                                                   that this deficiency was noted at one
       closets.
                                                   facility, and therefore that all ORD
                                                   facilities should review their status and
                                                   take corrective actions if the deficiency
                                                   exists.
       Direct facilities
       management at all ORD
       facilities to install locks                 ORD non-concurs. All facilities have
  2                                  ORD/OARS
       on exterior doors to                        exterior door locks.
       buildings that
       contain IT assets.
                                                   ORD concurs. Initial site specific
                                                   findings from audit have been corrected.
                                                   To address this issue at all ORD remote
                                                   sites, ORD/OSIM will continue
       Direct facilities                           implementation of the ORD Baseline
       management at all ORD                       Switch project. This effort addresses
       facilities to configure                     implementing a standard set of secure
       LAN security software to                    configuration settings that prevent
  3    prevent unauthorized          ORD/OSIM      unauthorized device connections to the
       device connection, and                      production LAN. ORD/OSIM conducts
       isolate or remove                           patching as required by the Agency
       unpatched devices from                      Computer Security Incident Response
       the production LAN.                         Capability (CSIRC). As un-patched
                                                   systems are identified in various agency
                                                   reports and operational efforts, these
                                                   systems will be reviewed and brought
                                                   up to the necessary patch level.




13-P-0252                                                                                 21
 Rec                               Responsible
 No.    OIG Recommendation           Office                   ORD Response
                                                 ORD concurs. ORD/OSIM will
       Direct facilities                         coordinate performance of semiannual
       management at all ORD                     workstations audits at all ORD sites to
       facilities to perform and                 assess staff compliance with Agency IT
       document semiannual                       security requirements. In addition to
  4                                ORD/OSIM
       workstation audits to                     semiannual audits, ORD/OSIM will
       assess staff compliance                   create an ORD informational message to
       with Agency IT                            educate ORD personnel on securing
       security requirements.                    workstations and portable devices as
                                                 required by Agency IT Security policy.
                                                 ORD concurs. Corrective actions have
                                                 been completed. ORD/OSIM has
                                                 completed a review and confirmed that
       Direct facilities
                                                 encryption levels on all ORD Guest
       management at all ORD
                                                 WLAN implementations at ORD remote
  5    facilities to strengthen    ORD/OSIM
                                                 sites meet the ORD standard and OIG
       encryption on all ORD
                                                 recommendation. This action was
       wireless access points.
                                                 confirmed completed on 11/26/12. ORD
                                                 requests closure of this
                                                 recommendation.




13-P-0252                                                                             22
 Rec                                  Responsible
 No.    OIG Recommendation              Office                   ORD Response
                                                    ORD non-concurs. Security
                                                    Management Division (SMD) conducts
                                                    routine vulnerability (security)
                                                    assessments at EPA facilities.
                                                    Assessments and recommendations are
                                                    driven by the assigned Facility Security
                                                    Level in accordance with Interagency
                                                    Security Committee standards.
                                                    Individual ORD sites have Physical
       Direct facilities                            Security Plans that reflect their
       management at all ORD                        designated Facility Security Level and
       facilities to guard facility                 measures tailored to their location and
  6    entrances and exits to         ORD/OARS      vulnerability assessment. The single
       facilitate random checks                     recommendation proposed is not
       of vehicles, baggage, and                    appropriate for all sites. Physical
       property passes.                             security assessments and
                                                    recommendations should align with
                                                    SMD reports and reflect their designated
                                                    security level. Minimum
                                                    recommendations are summarized in the
                                                    EPA Minimum Security Requirements
                                                    found at
                                                    http://intranet.epa.gov/oa/smd/pdfs/ps-
                                                    dat-security-
                                                    requirements_final_0507.pdf .




13-P-0252                                                                                 23
 Rec                                   Responsible
 No.    OIG Recommendation               Office                   ORD Response
                                                     ORD non-concurs. Security
                                                     Management Division (SMD) conducts
                                                     routine vulnerability (security)
                                                     assessments at EPA facilities.
                                                     Assessments and recommendations are
                                                     driven by the assigned Facility Security
                                                     Level in accordance with Interagency
                                                     Security Committee standards.
                                                     Individual ORD sites have Physical
                                                     Security Plans that reflect their
       Direct facilities                             designated Facility Security Level and
       management at all ORD                         measures tailored to their location and
       facilities to train all main-                 vulnerability assessment. The single
  7                                    ORD/OARS
       entrance personnel to                         recommendation proposed is not
       inspect badges, baggage,                      appropriate for all sites. Physical
       and property passes.                          security assessments and
                                                     recommendations should align with
                                                     SMD reports and reflect their designated
                                                     security level. Minimum
                                                     recommendations are summarized in the
                                                     Environmental Protection Agency
                                                     Minimum Security Requirements found
                                                     at
                                                     http://intranet.epa.gov/oa/smd/pdfs/ps-
                                                     dat-security-
                                                     requirements_final_0507.pdf .
       Direct facilities
       management at all ORD
       facilities to lock the door
       to the room containing                        ORD concurs. All servers in ORD/ERD
  8                                    ORD/OARS
       servers that host facility                    are now secured behind locked doors.
       security applications or
       move servers to a secure
       location.
       Direct facilities
       management at all ORD                         ORD concurs. ORD/ERD now has a
       facilities to include                         procedure for processing separated
  9    contract employees in the       ORD/OARS      contract employees. The procedure
       facilities’ employment                        includes collecting keys, badges, swipe
       separation policy and                         cards and parking permits.
       procedures.




13-P-0252                                                                                      24
 Rec                                   Responsible
 No.    OIG Recommendation               Office                   ORD Response
                                                     ORD concurs. ORD/OSIM and facilities
       Direct facilities                             staff reviewed and remediated specific
       management at all ORD                         findings from the audit to ensure that
       facilities to formalize a                     server room access lists ensure only
       process that restricts                        personnel with job duties requiring
 10                                    ORD/OSIM
       access to ORD server                          unescorted access to server rooms are
       rooms based upon job                          permitted entry. ORD/OSIM will create
       responsibility and                            formal procedures for the review and
       need.                                         management of server room access will
                                                     be created.
                                                     ORD non-concurs. Security
                                                     Management Division (SMD) conducts
                                                     routine vulnerability (security)
                                                     assessments at EPA facilities.
                                                     Assessments and recommendations are
                                                     driven by the assigned Facility Security
                                                     Level in accordance with Interagency
                                                     Security Committee standards.
                                                     Individual ORD sites have Physical
                                                     Security Plans that reflect their
                                                     designated Facility Security Level and
       Direct facilities
                                                     measures tailored to their location and
       management at all ORD
                                                     vulnerability assessment. The single
       facilities to improve
                                                     recommendation proposed is not
       camera-monitoring
                                                     appropriate for all sites. Physical
       systems and lighting to
 11                                    ORD/OARS      security assessments and
       increase visibility at sites;
                                                     recommendations should align with
       and to monitor external
                                                     SMD reports and reflect their designated
       buildings, server rooms,
                                                     security level. Minimum
       hallways, storage areas,
                                                     recommendations are summarized in the
       and entries and exits.
                                                     Environmental Protection Agency
                                                     Minimum Security Requirements found
                                                     at
                                                     http://intranet.epa.gov/oa/smd/pdfs/ps-
                                                     dat-security-
                                                     requirements_final_0507.pdf. It should
                                                     be noted that although not required,
                                                     ORD has taken proactive steps beyond
                                                     the EPA Minimum Security
                                                     Requirements by increasing CCTV data
                                                     storage capability at several locations.




13-P-0252                                                                                  25
 Rec                                Responsible
 No.    OIG Recommendation            Office                   ORD Response
                                                  ORD non-concurs. Security
                                                  Management Division (SMD) conducts
                                                  routine vulnerability (security)
                                                  assessments at EPA facilities.
                                                  Assessments and recommendations are
                                                  driven by the assigned Facility Security
                                                  Level in accordance with Interagency
                                                  Security Committee standards.
                                                  Individual ORD sites have Physical
                                                  Security Plans that reflect their
                                                  designated Facility Security Level and
                                                  measures tailored to their location and
       Direct facilities                          vulnerability assessment. The single
       management at all ORD                      recommendation proposed is not
       facilities to increase the                 appropriate for all sites. Physical
 12    CCTV monitoring storage      ORD/OARS      security assessments and
       time to meet EPA-                          recommendations should align with
       approved storage                           SMD reports and reflect their designated
       requirements.                              security level. Minimum
                                                  recommendations are summarized in the
                                                  Environmental Protection Agency
                                                  Minimum Security Requirements found
                                                  at
                                                  http://intranet.epa.gov/oa/smd/pdfs/ps-
                                                  dat-security-
                                                  requirements_final_0507.pdf. It should
                                                  be noted that although not required,
                                                  ORD has taken proactive steps beyond
                                                  the EPA Minimum Security
                                                  Requirements by increasing CCTV data
                                                  storage capability at several locations.
                                                  ORD concurs. The ORD Electronic
       Direct facilities                          Media Sanitization Standard Operating
       management at all ORD                      Procedure (SOP) was updated on
       facilities to develop and                  August 6, 2012. This SOP update
       employ procedures for the                  identified the requirement for validating
 13                                 ORD/OSIM
       random testing of                          the success of sanitization efforts.
       sanitized drives to verify                 ORD/OSIM will communicate this
       the removal of sensitive                   requirement by distributing this
       information.                               procedure to staff who perform this
                                                  duty.




13-P-0252                                                                                26
 Rec                                  Responsible
 No.    OIG Recommendation              Office                   ORD Response
       Direct facilities
                                                    ORD non-concurs. EPA Order 2030.1A,
       management at all ORD
                                                    Continuity of Operations (COOP)
       facilities to update ORD
                                                    Policy is the Agency's contingency
       COOP plans to include:
                                                    planning policy for identification of
       a. A list of required IT
                                                    COOP site requirements. ORD
       equipment provisions for
                                                    laboratories (except for those physically
       essential staff in the event
                                                    located in RTP and Cincinnati, where
       of an emergency.
                                                    OARM has the COOP lead) were
       b. A list of local stores
                                                    excluded from the Order as they do not
       and vendors to procure
 14                                   ORD/OARM      directly support Agency mission
       IT equipment from in
                                                    essential functions (MEFs). Under NIST
       order to maintain
                                                    800-34 Rev 1 (page 18), "Information
       operations in an
                                                    systems that do not support COOP
       emergency.
                                                    functions do not require alternate sites
       c. Procurement procedures
                                                    as part of the ISCP (Information System
       and the names of
                                                    Contingency Plan) recovery strategy..."
       authorized purchase
                                                    Therefore, ORD laboratories are not
       cardholders in COOP
                                                    required to maintain alternate work
       plans for each ORD
                                                    sites.
       facility.
                                                    ORD concurs. ORD/OSIM is
                                                    configuring ORD sites to backup data
                                                    over the Agency WAN to
                                                    geographically dispersed primary and
                                                    secondary backup locations. Many ORD
                                                    remote sites have transitioned into this
       Direct facilities                            configuration, while others are planning
       management at all ORD                        to do so as budget and resources permit.
 15    facilities to relocate data    ORD/OSIM      ORD/OSIM will review ORD remote
       backup tapes offsite to a                    site data that is not currently included in
       secure location.                             this plan to determine the need for back-
                                                    up based on the criticality of the data.
                                                    Additionally, ORD/OSIM will
                                                    determine operational and cost
                                                    implications of completing an electronic
                                                    backup or secure remote storage of
                                                    back-up tapes for this data.




13-P-0252                                                                                     27
 Rec                                  Responsible
 No.     OIG Recommendation             Office                   ORD Response
       Direct facilities
       management at all ORD
                                                    ORD concurs. ORD/OSIM will conduct
       facilities to conduct and
                                                    further research to determine the
       document annual tests
                                                    operational feasibility and cost
 16    (during non business           ORD/OSIM
                                                    implications of conducting and
       hours) of the
                                                    documenting annual UPS testing for
       uninterrupted power
                                                    ORD servers.
       supply connected to
       servers.
       Direct facilities                            ORD non-concurs. ORD server rooms
       management at all ORD                        are in compliance with the National Fire
       facilities to move the                       Protection Association (NFPA)
       server racks so that they                    standards. NFPA A.5.2.1.2 requires 18
 17    are not located directly       ORD/OARS      inches of clearance below the sprinkler
       under sprinkler heads or                     deflector. Installing a shield could create
       water pipes, or install leak                 an obstruction that would interrupt the
       shields on or above the                      water discharge and result in the loss of
       server racks.                                life.
       Direct facilities
       management at all ORD
       facilities to develop a
                                                    ORD non-concurs. Server rooms are in
       strategy that addresses
                                                    compliance with the National Fire
       limiting water damage to
                                                    Protections Association (NFPA)
       IT assets located in the
                                                    standards. Fire protection systems are
       server room and include:
 18                                   ORD/OARS      zoned in a manner to only discharge
       a. A 24 hours/day, 7
                                                    water in the area(s) that require fire
       days/week monitoring
                                                    suppression. In addition, if a leak
       provision.
                                                    occurs, the water and/or air pressure will
       b. Timely actions to be
                                                    drop and result in an alarm.
       taken in the event of
       water leaks in the server
       room.




13-P-0252                                                                                    28
                                                                                      Appendix C

 Agency Response to OIG Revised Recommendations
Subsequent to the issuance of our draft report, we met with Agency officials to discuss their
concerns with the report’s recommendations. Where appropriate, we modified the report’s
recommendations to address management’s concerns and provided the agency with a copy of the
revised recommendations for comment. Management concurred with four of the revised
recommendations, but provided suggested changes to the wording in seven of our revised
recommendations. OIG made no additional modifications based on ORD’s suggested wording of
our revised recommendations.

Management does not concur with the recommendations to improve the server room
environmental controls to protect the servers from accidental water damage (recommendations
17 and 18, respectively). Management states that installing a shield could create an obstruction
that could interrupt the water discharge and result in the loss of life. Management also states the
fire protection systems are zoned in a manner to only discharge water in the area(s) that require
fire suppression, and if a leak occurs, the water and/or air pressure will drop and result in an
alarm. Our audit revealed many of the ORD servers in question sit directly under the sprinkler
head, and the risks from accidental water damage could be reduced by rearranging the servers
within the room. However, it is incumbent upon management to assess the risks to assets and
document decisions within the organization’s information system security plan as required by
federal guidance. Therefore, the OIG made no additional modifications based on the suggested
wording of our revised recommendations.

This appendix represents the crosswalk between the OIG revised recommendations and the ORD
response to those revised recommendations, along with suggested wording to our revised
recommendations.




13-P-0252                                                                                         29
Rec            OIG Revised Recommendation                           New ORD Response                  ORD Suggested Alternative/Revised                            OIG Overall Analysis
No.                                                                                                          Recommendation

 2    Require facilities management personnel at the         Concur- however, ORD suggests          Direct facilities management at the Gulf       Although ORD concurred with our revised
      Gulf Ecology Division to install locks on all          minor changes to the wording. In       Ecology Division to install locks on all       recommendation, no documented evidence was provided
      facility exterior doors protecting information         addition, ORD has already              facility exterior doors protecting             to indicate ORD implemented the recommendation at all
      technology assets. Additionally, require               implemented this recommendation        information technology assets.                 ORD locations. Therefore, this recommendation will
      management at all other ORD facilities to verify       and we recommend that this be          Additionally, direct ORD facilities            remain open. Furthermore, the OIG made no additional
      functioning locks on exterior doors containing         closed as completed.                   management to ensure that local security       modifications based on the ORD suggested wording of
      information technology assets have been installed.                                            procedures and policies for locks on           our revised recommendation.
                                                                                                    exterior doors protecting information
                                                                                                    technology assets are being followed.



 6    Require facilities management personnel at the         Concur- however, ORD suggests          Direct facilities management at the            Although ORD concurred with our revised
      Atlantic Ecology Division and Ecosystems               changes to the wording. Also,          Atlantic Ecology Division and Ecology          recommendation and provided the OIG with suggested
      Research Division to guard facility entrances and      ORD follows Interagency Security       Research Division to guard facility            wording for the recommendation, the OIG made no
      exits to facilitate random checks of vehicles,         Committee physical security            entrances and exits to facilitate random       additional modifications to the revised recommendation
      baggage, and property passes. Additionally,            standards, as applied to our           checks of vehicles, baggage, and property      since our recommendation to management is more direct
      require management at all other ORD facilities to      facilities in collaboration with the   passes. Direct facilities management at        and action-oriented.
      adhere to local facility security procedures if        Security Management Division.          ORD facilities to ensure that local security
      random checks of vehicles, baggage, and property       Further, ORD facilities adhere to      procedures and policies for the guarding of
      passes are required.                                   local security procedures and          facility entrances and exits and random
                                                             policies appropriate to the local      checking of vehicles, baggage, and
                                                             security environment. The              property passes, where applicable, are
                                                             Ecosystems Research Division           being followed.
                                                             revised the security policy to
                                                             eliminate the conflict between
                                                             policy and accepted procedure.


 7    Require facilities management personnel at the         Concur- however, ORD suggests          Direct facilities management at the         Although ORD concurred with our revised
      Atlantic Ecology Division to train all main-           changes to the wording. In             Atlantic Ecology Division to train all      recommendation and provided the OIG with suggested
      entrance personnel to inspect badges, baggage, and     addition, please note that ORD         main-entrance personnel to inspect badges,  wording for the recommendation, the OIG made no
      property passes. Additionally, require management      follows Interagency Security           baggage, and property passes.               additional modifications. We stand by our
      at all other ORD facilities to train, if needed, its   Committee physical security                                                        recommendation, since we found no security personnel at
      main-entrance personnel on any required local          standards, as applied to our           Direct facilities management at ORD         the facility’s main entrance to conduct random inspections
      facility security procedures for inspecting badges,    facilities in collaboration with the   facilities to ensure that local security    and monitor surveillance equipment while contracted
      baggage, and property passes at building entrances.    Security Management Division.          procedures and policies for the guarding of security services personnel were on patrol of the facility.
                                                             Further, ORD facilities adhere to      facility entrances and exits and random     The expectation would be that personnel performing the
                                                             local security procedures and          checking of vehicles, baggage, and          security function in the absence of the contracted security
                                                             policies appropriate to the local      property passes, where applicable, are      services personnel be trained and qualified to do so.
                                                             security environment.                  being followed.




13-P-0252                                                                                                                                                                                               30
Rec            OIG Revised Recommendation                          New ORD Response                ORD Suggested Alternative/Revised                           OIG Overall Analysis
No.                                                                                                       Recommendation

 11   Require facilities management personnel at the         Non-Concur. ORD follows             Per 2750, ORD's alternative                   Management does not concur with this recommendation
      Gulf Ecology Division and Atlantic Ecology             Interagency Security Committee      recommendation is:                            to improve CCTV functionality or to improve monitoring
      Division to improve camera-monitoring systems          physical security standards.                                                      of ORD facilities. Management stated they follow
      and lighting to increase visibility at sites; and to   Current standards suggest CCTV      Direct facilities management at the Gulf      Interagency Security Committee physical security
      monitor external buildings, server rooms,              systems for facilities designated   Ecology Division and Atlantic Ecology         standards and these standards do not define minimum
      hallways, storage areas, and entries and exits.        security levels 1, 2, and 3.        Division to improve camera-monitoring         coverage for CCTV systems. However, we found the lack
      Additionally, require management at all other          Interagency Security Committee      systems and lighting to increase visibility   of adequate building lighting and CCTV coverage makes
      ORD facilities to review camera-monitoring             does not define minimum             at sites and to monitor external buildings,   the system ineffective for properly monitoring the
      systems and lighting to ensure the equipment is        coverage or minimum recording       server rooms, hallways, storage areas, and    facilities. Therefore, the OIG made no additional
      functioning properly to facilitate monitoring of       capacity for CCTV systems.          entries and exits. Additionally, direct       modifications based on the suggested wording of our
      external buildings, server rooms, hallways, storage                                        facilities management at ORD to ensure        revised recommendations
      areas, and entries and exits.                                                              that local security procedures and policies
                                                             Please note: Gulf Ecology           to improve the effectiveness of camera-
                                                             Division, a Level 2 facility,       monitoring systems and lighting and the
                                                             upgraded their existing CCTV        monitoring of external buildings, server
                                                             system as did Atlantic Ecology      rooms, hallways, storage areas, and entries
                                                             Division, a Level 3 facility.       and exits, where applicable, are being
                                                                                                 followed.


 12   Require facilities management personnel at the         Non-concur. ORD follows             Per 2750, ORD's alternative              Management does not concur with this recommendation
      Gulf Ecology Division and Atlantic Ecology             Interagency Security Committee      recommendation is:                       to increase CCTV monitoring storage time. Management
      Division to increase the CCTV monitoring storage       physical security standards.                                                 stated they follow Interagency Security Committee
      time to meet EPA-approved storage requirements.        Current standards suggest CCTV      Direct facilities management at the Gulf physical security standards and these standards do not
      Additionally, require management at all other          systems for facilities designated   Ecology Division and Atlantic Ecology    define minimum recording capacity for CCTV systems.
      ORD facilities to review its practices to ensure       security levels 1, 2, and 3.        Division to increase the CCTV monitoring However, we found the CCTV storage capacity
      CCTV monitoring storage time meets EPA-                Interagency Security Committee      storage time to meet EPA-approved        inadequate for aiding management’s research if a security
      approved storage requirements.                         does not define minimum             storage requirements. Direct facilities  breach or incident occurs. Therefore, the OIG made no
                                                             coverage or minimum recording       management at ORD facilities to ensure   additional modifications based on the suggested wording
                                                             capacity for CCTV systems.          that CCTV monitoring storage time is     of our revised recommendations.
                                                                                                 increased to meet EPA-approved storage
                                                                                                 requirements, where applicable.
                                                             Please note: Gulf Ecology
                                                             Division, a Level 2 facility,
                                                             upgraded their existing CCTV
                                                             system as did Atlantic Ecology
                                                             Division, a Level 3 facility.




13-P-0252                                                                                                                                                                                          31
Rec           OIG Revised Recommendation                    New ORD Response              ORD Suggested Alternative/Revised                           OIG Overall Analysis
No.                                                                                              Recommendation

 14   Require facilities management personnel at the    Concur- however, ORD suggests   Direct facilities management at the           Although ORD concurred with our revised
      Gulf Ecology Division, Atlantic Ecology Division, changes to the wording.         Atlantic Ecology Division to train all        recommendation and provided the OIG with suggested
      and Ecosystems Research Division to update its                                    main-entrance personnel to inspect badges,    wording for the recommendation, the OIG made no
      contingency plans to include:                                                     baggage, and property passes.                 additional modifications to the revised recommendation
                                                                                        Additionally, direct management at all        since our recommendation to management is more direct
         a. A list of required IT equipment provisions                                  other ORD facilities train, if needed, its    and action-oriented.
            for essential staff in the event of an                                      main-entrance personnel on any required
            emergency.                                                                  local facility security procedures for
                                                                                        inspecting badges, baggage, and property
         b. A list of local stores and vendors from                                     passes at building entrances.
            which to procure IT equipment in order to
            maintain operations in an emergency.                                        Direct facilities management at the Gulf
                                                                                        Ecology Division, Atlantic Ecology
         c. Procurement procedures and the names of                                     Division, and the Ecosystems Research
            authorized purchase cardholders in COOP                                     Division to update its contingency plans to
            plans for each ORD facility.                                                include:

      Additionally, require management personnel at all                                    a. A list of required IT equipment
      other ORD facilities to provide operational                                             provisions for essential staff in the
      resources and facilities in the event of an                                             event of an emergency.
      emergency.
                                                                                           b. A list of local stores and vendors to
                                                                                              procure IT equipment from in order
                                                                                              to maintain operations in an
                                                                                              emergency.

                                                                                           c. Procurement procedures and the
                                                                                              names of authorized purchase
                                                                                              cardholders in contingency plans.

                                                                                        Additionally, direct management to review
                                                                                        and update, if necessary, its contingency
                                                                                        plans to ensure resources are available and
                                                                                        facilities remain operational, in the event
                                                                                        of an emergency.




13-P-0252                                                                                                                                                                                  32
Rec            OIG Revised Recommendation                          New ORD Response                ORD Suggested Alternative/Revised                     OIG Overall Analysis
No.                                                                                                       Recommendation

 17   Require facilities management personnel at the        Non-Concur. ORD meets National                                             Moving the server racks or installing leak shields above
      Gulf Ecology Division, Atlantic Ecology Division,     Fire Protections Association                                               them would have no effect on obstructing water discharge
      and Ecosystems Research Division to move the          A.5.2.1.2 requirements for                                                 or result in the loss of life. The purpose of the leak shields
      server racks so that they are not located directly    sprinkler installation. Installing a                                       is to reduce/prevent accidental water damage to the
      under sprinkler heads or water pipes, or install      shield could create an obstruction                                         servers. Based on federal guidance, if management does
      leak shields above the server racks to comply with    that could interrupt the water                                             not want to install the shields or move the servers, then it
      NIST SP 800-53 requirements. If management            discharge and result in the loss of                                        should update the security plan and have the authorizing
      decides to accept the risk of not relocating the      life.                                                                      official formally accept operating the server room with
      server racks, then ORD should update the                                                                                         this know risk.
      respective information system security plan and
      have the authorizing official formally accept the
      responsibility for operating the room with known
      risks as required by federal policy.


 18   Require facilities management personnel at all        Non-Concur. Server rooms are in                                            The OIG requested documentation governing the fire
      ORD facilities to develop a strategy that addresses   compliance with the National Fire                                          system design and alarm system, and ORD has not
      limiting water damage to IT assets located in the     Protections Association standards.                                         provided this information. Therefore, this
      server room and include:                              Fire protection systems are zoned                                          recommendation will remain open.
                                                            in a manner to only discharge
         a. A 24 hours/day, 7 days/week monitoring          water in the area(s) that require
            provision.                                      fire suppression. In addition, if a
                                                            leak occurs, the water and/or air
         b. Timely actions to be taken in the event of      pressure will drop and result in an
            water leaks in the server room.                 alarm.

      If management decides to accept this risk of not
      developing a strategy to comply with NIST SP
      800-53 requirements, then ORD should update the
      respective information system security plan and
      have the authorizing official formally accept the
      responsibility for operating the room with known
      risks as required by federal policy.




13-P-0252                                                                                                                                                                                         33
                                                                             Appendix D

                                   Distribution
Office of the Administrator
Principal Deputy Assistant Administrator for Research and Development
Associate Assistant Administrator for Research and Development
Deputy Assistant Administrator for Management, Office of Research and Development
Deputy Assistant Administrator for Science, Office of Research and Development
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Senior Agency Information Security Officer
Audit Follow-Up Coordinator, Office of Research and Development




13-P-0252                                                                           34
